In THE
Supreme Court of the nited States

 

No. 19-1173

 

COMCAST CORPORATION, ET AL.,
Petitioners,
Vv.
INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.

 

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

 

CERTIFICATE OF SERVICE

I hereby certify that on this 26th day of May, 2020, I caused three copies of the
Brief in Opposition of Rovi Corporation and Rovi Guides, Inc. to be served on the counsel

of record as follows:

By overnight delivery and email to:

DONALD B. VERRILLI, JR. PAUL M. BARTKOWSKI
MUNGER, TOLLES & OLSON LLP ADDUCI, MASTRIANI & SCHAUMBERG
1155 F. St., N.W., 7th FL LLP
Washington, D.C. 20004 1133 Connecticut Ave., N.W., 12th Fl.
(202) 220-1100 Washington, D.C. 20036
Donald.Verrilli@MTO.com
Counsel for the Technicolor
Counsel for the Comcast Petitioners Petitioners
MITCHELL G. STOCKWELL NOEL J. FRANCISCO
KILPATRICK TOWNSEND & STOCKTON LLP SOLICITOR GENERAL
1100 Peachtree St., N.E., Suite 2800 U.S. DEPARTMENT OF JUSTICE

Atlanta, GA 30309

950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

Counsel for the ARRIS Petitioners (202) 514-2217

SupremeCtBriefs@usdoj.gov

Counsel for Respondents
International Trade Commission,
et al.
T hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.

Executed on May 26, 2020.

 

(202) 556-2000
jlamken@mololamken.com

Counsel for Respondents Rovi
Corporation and Rovi Guides, Inc.
